  OFFICE OF JUSTICE PROGRAMS 

SOUTHWEST BORDER PROSECUTION 

INITIATIVE FUNDING RECEIVED BY 

     BROOKS COUNTY, TEXAS 



     U.S. Department of Justice 

   Office of the Inspector General 

            Audit Division 



     Audit Report GR-60-08-002 

           December 2007

                 OFFICE OF JUSTICE PROGRAMS 

               SOUTHWEST BORDER PROSECUTION 

               INITIATIVE FUNDING RECEIVED BY 

                    BROOKS COUNTY, TEXAS 


                       EXECUTIVE SUMMARY 



      The U.S. Department of Justice, Office of the Inspector General,
Audit Division, has completed an audit of the Southwest Border
Prosecution Initiative (SWBPI) funding awarded by the Office of Justice
Programs (OJP) to Brooks County, Texas. As of March 26, 2007,
Brooks County had received SWBPI funding totaling $7,816,735.

      Many drug and other criminal cases occurring along the
southwest border are initiated by a federal law enforcement agency or
multi-jurisdictional task forces, e.g., High Intensity Drug Trafficking
Areas (HIDTA) and Organized Crime Drug Enforcement Task Forces
(OCDETF). Many U.S. Attorneys have developed prosecution
guidelines which govern the most common violations of federal law.
These prosecution guidelines are used by law enforcement agencies to
determine whether to file a case in federal, state, or county court. As
a result, many federally initiated cases occurring near the southwest
border are referred to the state or county for prosecution.

       The SWBPI was established in Fiscal Year (FY) 2002, when
Congress began appropriating funds to reimburse State, county,
parish, tribal, and municipal governments for costs associated with the
prosecution of criminal cases declined-referred by local U.S. Attorneys’
offices. Reimbursements received from SWBPI funding may be used
by applicant jurisdictions for any purpose not otherwise prohibited by
federal law. For FY 2007, Congress appropriated $30 million for the
SWBPI.

      The objective of our audit was to determine if the SWBPI
reimbursements received by Brooks County were allowable, supported,
and in accordance with applicable laws, regulations, guidelines, and
terms and conditions of the SWBPI.

      We found that Brooks County claimed and was reimbursed for
unsupported cases and cases that were ineligible under the SWBPI
guidelines. Based on the deficiencies listed below, we identified
questioned costs totaling $1,921,274.1 Specifically, we found that
Brooks County received:

   	 Unallowable reimbursements totaling $587,591 for 131 cases
      which were not federally initiated.

   	 Unallowable reimbursements totaling $382,258 for 116 cases
      that were not prosecuted and erroneously submitted.

   	 Unsupported reimbursements totaling $316,174 for 68 cases
      that were erroneously submitted with unsupported disposition
      dates.

   	 Unsupported reimbursements totaling $139,612 for 55 cases for
      which pre-trial detention data was unavailable.

   	 Unallowable reimbursements totaling $126,250 for 30 cases
      submitted in the incorrect quarter.

   	 Unsupported reimbursements totaling $117,804 for 26 cases
      with incomplete case files.

   	 Unsupported reimbursements totaling $48,455 for 11 cases
      submitted in a quarter without support.

   	 Unallowable excess reimbursements totaling $24,345 for six
      cases which were duplicates of other cases submitted.

   	 Unallowable reimbursements totaling $7,465 for two cases that
      were claimed under the both prosecution and pre-trial detention
      category, but should have been claimed as prosecution only
      because the defendant was not held overnight.

   	 Received unsupported reimbursements totaling $171,320 for
      50 cases that were not supported by the master case list when
      reconciled with OJP reimbursement data.



       1
         The Inspector General Act of 1978, as amended, contains our reporting
requirements for questioned costs. However, not all findings are dollar-related. See
Appendix II for a breakdown of our dollar-related findings and for definitions of
questioned costs and funds to better use.



                                       - ii -
     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit Objectives, Scope,
and Methodology appear in Appendix I.




                               - iii -
                     OFFICE OF JUSTICE PROGRAMS 

                   SOUTHWEST BORDER PROSECUTION 

                   INITIATIVE FUNDING RECEIVED BY 

                           BROOKS COUNTY 

                          FALFURRIAS, TEXAS 



                              TABLE OF CONTENTS



INTRODUCTION ........................................................................ 1


     Background ......................................................................... 1


FINDINGS AND RECOMMENDATIONS ....................................... 4


     Case Eligibility ..................................................................... 4

     Recommendations ................................................................ 7


APPENDIX I – OBJECTIVES, SCOPE, AND METHODOLOGY ........ 8


APPENDIX II – SCHEDULE OF DOLLAR-RELATED FINDINGS ... 10


APPENDIX III – DETAILS OF QUESTIONED COSTS ................. 11


APPENDIX IV – BROOKS COUNTY RESPONSE TO THE DRAFT 

    REPORT ........................................................................... 26


APPENDIX V – OFFICE OF JUSTICE PROGRAMS RESPONSE TO

    THE DRAFT REPORT ........................................................ 28


APPENDIX VI – ANALYSIS AND SUMMARY OF ACTIONS 

    NECESSARY TO CLOSE REPORT ....................................... 31

                           INTRODUCTION


      The Office of the Inspector General, Audit Division, has
completed an audit of the Southwest Border Prosecution Initiative
(SWBPI) funding awarded by the U.S. Department of Justice (DOJ),
Office of Justice Programs (OJP) to Brooks County, Texas. The
objective of the audit was to determine whether the SWBPI
reimbursements received by Brooks County were allowable, supported,
and in accordance with applicable laws, regulations, and terms and
conditions of the SWBPI guidelines.

Background

       Prior to 1994, most southwest border counties in the states of
Arizona, California, New Mexico, and Texas did not prosecute drug
cases resulting from the illegal importation of controlled substances at
U.S. borders. Typically, these cases were prosecuted exclusively by
U.S. Attorneys in federal courts. However, in late 1994,
U.S. Attorneys, and state and local prosecutors established
partnerships through which the state and local governments began
prosecuting federally referred criminal cases. These partnerships
allowed the U.S. Attorneys to focus on addressing major drug
trafficking organizations and prosecuting deported criminal aliens who
returned to the U.S. illegally. As state and local governments began to
prosecute a growing number of federally referred criminal cases, the
partnerships led to an increased financial and resource burden.
Congress recognized this problem and began appropriating funds
under the SWBPI in FY 2002 to support state and local prosecutions
along the southwest border.

       For FY 2007, Congress appropriated $30 million in funding for
the SWBPI, Pub. L. No. 110-5, to reimburse state, county, parish,
tribal, or municipal governments for costs associated with the
prosecution of criminal cases declined by local U.S. Attorneys’ offices.
Reimbursements received from the SWBPI funding may be used by
applicant jurisdictions for any purpose not otherwise prohibited by law;
however, the direct support and enhancement of jurisdictions’
prosecutorial and detention services are encouraged.

      For cases submitted for prosecution or pre-trial detention
services only, each eligible case may receive the following maximum


                                 - 1 -

reimbursement, based upon the length of disposition and the
availability of funds:

     $1,250 for each case of 1 to 15 days,

     $2,500 for each case of 16 to 30 days,

     $3,750 for each case of 31 to 90 days, and

     $5,000 for each case over 90 days.

      For cases submitted for both prosecution and pre-trial detention
services, each eligible case submitted for reimbursement, may receive
the following maximum reimbursement, based upon the length of
disposition and the availability of funds:

     $2,500 for each case of 1 to 15 days,

     $5,000 for each case of 16 to 30 days,

     $7,500 for each case of 31 to 90 days, and

     $10,000 for each case over 90 days.

      The disposition period of a case with both prosecution and
pre-trial detention services is calculated using the prosecution
disposition period. To meet the pre-trial detention services
requirement, the individual must be incarcerated overnight.

      Pursuant to SWBPI guidelines, when reimbursement requests
exceed available funding, applicants receive funds on a uniform,
pro-rata basis. For the quarters ended December 31, 2004, March 31,
2005, June 30, 2005, September 30, 2005, December 31, 2005,
March 31, 2006, June 30, 2006, and September 30, 2006, SWBPI
recipients received pro-rata reimbursements of 49.29 percent,
44.08 percent, 47.40 percent, 50.16 percent, 53.18 percent,
47.61 percent, 43.09 percent, and 44.05 percent respectively. There
were no SWBPI funds available for the fourth quarter ended
September 30, 2004.




                                 - 2 -

          As shown in the following table, as of March 26, 2007, Brooks
     County received reimbursements from SWBPI funds totaling
     $7,816,735 for federally initiated and declined-referred criminal cases.


                                     REIMBURSEMENTS TO 

                                      BROOKS COUNTY 

   REPORTING           START                          AMOUNT          AMOUNT
                                     END DATE
     PERIOD             DATE                         REQUESTED      REIMBURSED
 Phase I             10/01/01        03/31/03          $2,797,500       $2,797,500
 Phase II            04/01/03        06/30/03            $376,250         $376,250
 Phase III           07/01/03        09/30/03            $448,750         $448,750
 Phase IV            10/01/03        12/31/03            $202,500         $202,500
 Phase V             01/01/04        03/31/04            $240,000         $240,000
 Phase VI            04/01/04        06/30/04            $285,000         $285,000
 Phase VII           10/01/04        12/31/04          $1,732,500         $853,899
 Phase VIII          01/01/05        03/31/05            $950,000         $418,766
 Phase IX            04/01/05        06/30/05            $758,750         $359,658
 Phase X             07/01/05        09/30/05          $1,780,000         $892,790
 Phase XI            10/01/05        12/31/05            $626,250         $333,048
 Phase XII           01/01/06        03/31/06            $385,000         $183,315
 Phase XIII          04/01/06        06/30/06            $322,500         $138,949
 Phase XIV           07/01/06        09/30/06            $650,000         $286,310
 TOTAL                                                                 $7,816,735
Source: Office of Justice Programs




                                            - 3 -

               FINDINGS AND RECOMMENDATIONS


      We found that Brooks County claimed and was reimbursed
      for cases for which the supporting case data could not be
      provided and cases that were ineligible under the SWBPI
      guidelines. We also found that reimbursement requests
      were not always supported by Brooks County’s master
      case list, resulting in an excess number of cases submitted
      for reimbursement. As a result, we identified questioned
      costs totaling $1,921,274.


Case Eligibility

      Pursuant to the SWBPI guidelines, an eligible case is any
federally initiated criminal case that the U.S. Attorney declined to
prosecute and referred to the state or local government for
prosecution, which was prosecuted by the state or local government
and disposed of during an eligible reporting period. The SWBPI
guidelines define federally initiated as a case resulting from a criminal
investigation or an arrest involving federal law enforcement authorities
for a potential violation of federal criminal law. This may include
investigations resulting from multi-jurisdictional task forces, e.g., High
Intensity Drug Trafficking Areas (HIDTA) and Organized Crime Drug
Enforcement Task Forces (OCDETF). The SWBPI guidelines further
state that, “referred cases are eligible regardless of whether the case
was formally declined and referred by a U.S. Attorney, or through a
blanket federal declination-referral policy, an accepted federal law
enforcement practice, or by federal prosecutorial discretion.” Federally
referred cases that are declined or not prosecuted by the state or local
government are ineligible for reimbursement.

        We selected and analyzed a sample of cases submitted by
Brooks County to determine whether the cases were eligible for
reimbursement under the requirements of the SWBPI guidelines. Our
initial sample consisted of 98 prosecution only cases, 89 prosecution
and pre-trial detention cases, and 20 detention only cases for review.
During our initial review of Brooks County’s master case list, we
identified cases that did not appear to be supported by the data
provided and unallowable cases. As a result, we selected an
additional 133 prosecution only cases, 182 prosecution and pre-trial


                                  - 4 -

detention cases, and 35 detention only cases for review. In total our
review consisted of 231 prosecution only cases, 271 prosecution and
pre-trial detention cases, and 55 detention only cases.

       Based on our review, we determined that Brooks County
received SWBPI funds totaling $1,749,954 for 445 cases that were not
supported by available data or were not eligible for reimbursement
pursuant to the SWBPI guidelines. A detailed listing of the 445 cases
claimed by Brooks County that were not eligible for reimbursement is
provided in Appendix III. Specifically, we found that Brooks County
received:

  	 Unallowable reimbursements totaling $587,591 for 131 cases
     which were not federally initiated.

  	 Unallowable reimbursements totaling $382,258 for 116 cases
     that were not prosecuted and erroneously submitted.

  	 Unsupported reimbursements totaling $316,174 for 68 cases
     that were erroneously submitted with unsupported disposition
     dates.

  	 Unsupported reimbursements totaling $139,612 for 55 cases for
     which pre-trial detention data was unavailable.

  	 Unallowable reimbursements totaling $126,250 for 30 cases
     submitted in the incorrect quarter.

  	 Unsupported reimbursements totaling $117,804 for 26 cases
     with incomplete case files.

  	 Unsupported reimbursements totaling $48,455 for 11 cases
     submitted in a quarter without support.

  	 Unallowable excess reimbursements totaling $24,345 for six
     cases which were duplicates of other cases submitted.

  	 Unallowable reimbursements totaling $7,465 for two cases that
     were claimed under the both prosecution and pre-trial detention
     category, but should have been claimed as prosecution only
     because the defendant was not held overnight.



                                 - 5 -

Accuracy of Reimbursements

      Brooks County requests reimbursements from SWBPI funds
through an on-line application available on the Bureau of Justice
Assistance website. Pursuant to the SWBPI guidelines, eligible cases
are reimbursed using a uniform payment per case schedule based on
the length of disposition, which is calculated from the date of the
suspect’s arrest through resolution. Resolution of the case is defined
as dismissal, conviction, or plea.

      We reviewed the reimbursement requests submitted by Brooks
County for the period October 1, 2001, through September 30, 2006,
to determine if the number of cases claimed for each disposition
category was supported by the detailed case listings obtained during
fieldwork. Based on our review, we determined that the
reimbursement requests were not always supported by the master
case listing resulting in excess reimbursements totaling $171,320 as
shown in the following table.

             UNSUPPORTED CASES CLAIMED FOR REIMBURSEMENT
                                                        UNSUPPORTED
 DISPOSITION     CASES       ACTUAL                     QUESTIONED
  CATEGORIES    CLAIMED      CASES        DIFFERENCE       COSTS
QUARTER ENDED SEPTEMBER 30, 2005
 16 – 30 Days       1           0              1                 1,254
   SUBTOTAL                                                     $1,254
QUARTER ENDED JUNE 30, 2005:
 16 – 30 Days       3           0             3                  7,110
 31 – 90 Days       8           0             8                 28,440
 91 + Days         64          45             19                87,690
   SUBTOTAL                                                  $123,240
QUARTER ENDED DECEMBER 31, 2004:
 91 + Days         53          34             19                46,826
   Subtotal                                                   $46,826
TOTAL EXCESS REIMBURSEMENTS                                  $171,320




                                 - 6 -

Recommendations

       We recommend that OJP:

1.	    Remedy the $587,591 in unallowable costs received by Brooks
       County for 131 cases that were not federally initiated.

2.	    Remedy the $382,258 in unallowable costs received by Brooks
       County for 116 cases that were not prosecuted and erroneously
       submitted.

3.	    Remedy the $316,174 in unsupported questioned costs received
       by Brooks County for 68 cases that were erroneously submitted
       with unsupported disposition dates.

4.	    Remedy the $139,612 in unsupported costs for 55 cases for
       which the pre-trial detention data was unavailable.

5.	    Remedy the $126,250 in unallowable costs for 30 cases
       submitted in the incorrect quarter.

6.	    Remedy the $117,804 in unsupported costs received by Brooks
       County for 26 cases with incomplete case files.

7.	    Remedy the $48,455 in unsupported costs for 11 cases
       submitted in a quarter without support.

8.	    Remedy the $24,345 in unallowable costs received by Brooks
       County for six cases which were duplicates of other cases
       submitted.

9.	    Remedy the $7,465 in unallowable costs for two cases that were
       claimed under the both prosecution and pre-trial detention
       category, but should have been claimed as prosecution only
       because the defendant was not held overnight.

10.	   Remedy the $171,320 for 50 cases that were not supported by
       the master case list when reconciled with OJP reimbursement
       data.




                                 - 7 -

                                                           APPENDIX I

            OBJECTIVES, SCOPE, AND METHODOLOGY

      The objective of the audit was to determine whether
reimbursements claimed for costs under the SWBPI are allowable,
supported, and in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the SWBPI guidelines.

      We conducted our audit in accordance with Government Auditing
Standards and included such tests as were considered necessary to
accomplish our objectives. Our audit concentrated on, but was not
limited to, the inception of the reimbursements through September 30,
2006.

      We tested compliance with what we consider to be the important
conditions of the reimbursements under the SWBPI. Unless otherwise
stated in our report, the criteria we audit against are contained in the
SWBPI guidelines. We tested Brooks County SWBPI activities in the
following areas: case eligibility, calculation of disposition categories,
and compliance with regulations.

        We selected and analyzed a sample of cases submitted by
Brooks County to determine whether the cases were eligible for
reimbursement under the requirements of the SWBPI guidelines. Our
initial sample consisted of 98 prosecution only cases, 89 prosecution
and pre-trial detention cases, and 20 detention only cases for review.
During our initial review of Brooks County’s master case list, we
identified cases that did not appear to be supported by the data
provided and unallowable cases. As a result, we selected an
additional 133 prosecution only cases, 182 prosecution and pre-trial
detention cases, and 35 detention only cases for review. In total our
review consisted of 231 prosecution only cases, 271 prosecution and
pre-trial detention cases, and 55 detention only cases.

       We did not test internal controls for Brooks County as a whole.
The Single Audit Report for Brooks County, Texas was prepared under
the provisions of Office of Management and Budget Circular A-133 for
the fiscal year ended June 30, 2006. We reviewed the independent
auditor’s assessment to identify control weaknesses and significant
non-compliance issues related to Brooks County or federal programs.
The auditor’s assessment disclosed no material control weaknesses or


                                  - 8 -

significant non-compliance issues related to the SWBPI. In addition,
we performed limited testing of source documents to assess the
accuracy of reimbursement requests; however, we did not test the
reliability of the financial management system as a whole.




                                 - 9 -

                                                                 APPENDIX II

             SCHEDULE OF DOLLAR-RELATED FINDINGS

 QUESTIONED COSTS:                                         AMOUNT         PAGE

 Unallowable Cases - that were not federally
   initiated.                                             $ 587,591          5
 Unallowable Cases - that were not prosecuted
   and were erroneously submitted.                          382,258          5
 Unsupported Reimbursement - cases for which
   the supporting disposition data could not be
   located.                                                 316,174          5
 Unsupported Reimbursement - cases for which
   the supporting jail data portion of
   reimbursement could not be located.                      139,612          5
 Unallowable Reimbursements - cases
   submitted in the incorrect quarter.                      126,250          5
 Unsupported Reimbursement - cases for which
   the supporting data was incomplete.                      117,804          5
 Unsupported Reimbursements - cases
   submitted in a quarter without support.                  48,455           5
 Unallowable excess reimbursement - for
   duplicate cases previously submitted.                    24,345           5
 Unallowable Cases - cases that did not meet
 the overnight pre-trial detention requirement.              7,465           5
 Unsupported Reimbursements - cases not
   supported by the master list.                            171,320          6

 Total Questioned Costs:                                 $1,921,274

 TOTAL DOLLAR-RELATED FINDINGS                           $1,921,274



Questioned Costs are expenditures that do not comply with legal, regulatory or
contractual requirements, or are not supported by adequate documentation at the
time of the audit, or are unnecessary or unreasonable. Questioned costs may be
remedied by offset, waiver, recovery of funds, or the provision of supporting
documentation.

                                     - 10 -
                                                        APPENDIX III
                        BROOKS COUNTY
                  DETAILS OF QUESTIONED COSTS

                        REIMBURSEMENTS TO THE
               BROOKS COUNTY DISTRICT ATTORNEY’S OFFICE

                    CASES NOT FEDERALLY INITIATED
                     SUBMITTED
                    QUARTER END     REIMBURSEMENT
    CASE NO.           DATE            CATEGORY        AMOUNT QUESTIONED
040808969           12/31/2005      Prosecution Only        $2,659.00
041109097           12/31/2005      Prosecution Only         2,659.00
050809271           12/31/2005      Prosecution Only         2,659.00
050809300           12/31/2005      Prosecution Only         2,659.00
050809304           12/31/2005      Prosecution Only         2,659.00
050809316           12/31/2005      Prosecution Only         2,659.00
040408633           06/30/2005      Prosecution Only         2,370.00
031108519           03/31/2005      Prosecution Only         2,204.00
040808968           03/31/2005      Prosecution Only         2,204.00
041009046           03/31/2005      Prosecution Only         2,204.00
041009069           03/31/2005      Prosecution Only         2,204.00
041009086           03/31/2005      Prosecution Only         2,204.00
041109100           03/31/2005      Prosecution Only         2,204.00
041109102           12/31/2004      Prosecution Only         2,464.50
040108571           06/30/2004      Prosecution Only         5,000.00
040108573           06/30/2004      Prosecution Only         5,000.00
040408645           06/30/2004      Prosecution Only         3,750.00
10262               12/31/2003      Prosecution Only         5,000.00
030608387           09/30/2003      Prosecution Only         2,500.00
08289               06/30/2003      Prosecution Only         5,000.00
08292               06/30/2003      Prosecution Only         5,000.00
021208293           06/30/2003      Prosecution Only         5,000.00
08295               06/30/2003      Prosecution Only         5,000.00
08296               06/30/2003      Prosecution Only         5,000.00
07562               03/31/2003      Prosecution Only         5,000.00
07749               03/31/2003      Prosecution Only         5,000.00
07895               03/31/2003      Prosecution Only         5,000.00
07896               03/31/2003      Prosecution Only         5,000.00
08288               03/31/2003      Prosecution Only         5,000.00
07573               09/30/2002      Prosecution Only         1,250.00
08063               09/30/2002      Prosecution Only         1,250.00
07552               09/30/2002      Prosecution Only         2,500.00
07560               09/30/2002      Prosecution Only         3,750.00
07611               09/30/2002      Prosecution Only         3,750.00


                                  - 11 -
                   SUBMITTED
                  QUARTER END     REIMBURSEMENT
    CASE NO.         DATE            CATEGORY        AMOUNT QUESTIONED
07680             09/30/2002      Prosecution Only         3,750.00
07681             09/30/2002      Prosecution Only         3,750.00
08074             09/30/2002      Prosecution Only         3,750.00
08080             09/30/2002      Prosecution Only         3,750.00
08083             09/30/2002      Prosecution Only         5,000.00
08208             09/30/2002      Prosecution Only         3,750.00
07330             09/30/2002      Prosecution Only         5,000.00
07404             09/30/2002      Prosecution Only         5,000.00
07422             09/30/2002      Prosecution Only         5,000.00
07553             09/30/2002      Prosecution Only         5,000.00
07555             09/30/2002      Prosecution Only         5,000.00
07556             09/30/2002      Prosecution Only         5,000.00
07557             09/30/2002      Prosecution Only         5,000.00
07558             09/30/2002      Prosecution Only         5,000.00
07559             09/30/2002      Prosecution Only         5,000.00
07563             09/30/2002      Prosecution Only         5,000.00
07564             09/30/2002      Prosecution Only         5,000.00
07565             09/30/2002      Prosecution Only         5,000.00
07566             09/30/2002      Prosecution Only         5,000.00
07567             09/30/2002      Prosecution Only         5,000.00
07568             09/30/2002      Prosecution Only         5,000.00
07569             09/30/2002      Prosecution Only         5,000.00
07682             09/30/2002      Prosecution Only         5,000.00
07683             09/30/2002      Prosecution Only         5,000.00
07684             09/30/2002      Prosecution Only         5,000.00
041109108         12/31/2005      Prosecution Only         2,659.00
050809303         12/31/2005      Prosecution Only         2,659.00
041109101         03/31/2005      Prosecution Only         2,204.00
04109036          03/31/2005      Prosecution Only         2,204.00
10499-920203005   03/31/2005      Prosecution Only         2,204.00
021208282         12/31/2004      Prosecution Only         2,464.50
021208290         06/30/2004      Prosecution Only         5,000.00
040408644         06/30/2004      Prosecution Only         5,000.00
11107571          03/31/2004      Prosecution Only         5,000.00
30508350          03/31/2004      Prosecution Only         5,000.00
30508375          03/31/2004      Prosecution Only         5,000.00
30808434          03/31/2004      Prosecution Only         5,000.00
30808443          03/31/2004      Prosecution Only         5,000.00
31108514          03/31/2004      Prosecution Only         5,000.00
31108518          03/31/2004      Prosecution Only         5,000.00
31108528          03/31/2004      Prosecution Only         5,000.00



                                - 12 -
                   SUBMITTED
                  QUARTER END     REIMBURSEMENT
    CASE NO.         DATE            CATEGORY        AMOUNT QUESTIONED
40108537          03/31/2004      Prosecution Only         1,250.00
40108538          03/31/2004      Prosecution Only         1,250.00
40308625          03/31/2004      Prosecution Only         5,000.00
030508386         06/30/2003      Prosecution Only         5,000.00
03040833          06/30/2003      Prosecution Only         5,000.00
08102-020708102   06/30/2003      Prosecution Only         5,000.00
07554             09/30/2002      Prosecution Only         5,000.00
060809549         09/30/2006            Both               4,405.00
050709228         12/31/2005            Both               5,318.00
040908976         09/30/2005            Both               5,016.00
050109159         09/30/2005            Both               5,016.00
050109158         06/30/2005            Both               4,740.00
920503128         06/30/2005            Both               4,740.00
040908980         03/31/2005            Both               4,408.00
040909002         03/31/2005            Both               4,408.00
04100952          03/31/2005            Both               4,408.00
040908985         12/31/2004            Both               4,929.00
08358             06/30/2003            Both               7,500.00
050709240         12/31/2005            Both               5,318.00
041209121         06/30/2005            Both               4,740.00
040908986         12/31/2004            Both               4,929.00
30808439          03/31/2004            Both              10,000.00
31108527          03/31/2004            Both              10,000.00
40108575          03/31/2004            Both              10,000.00
930703915         06/30/2006            Both               4,309.00
980405721         09/30/2006            Both               4,405.00
980605893         09/30/2006            Both               4,405.00
980806001         03/31/2006            Both               4,761.00
040909004         12/31/2005            Both               5,318.00
050709219         12/31/2005            Both               5,318.00
050709227         12/31/2005            Both               5,318.00
050709229         12/31/2005            Both               5,318.00
050809270         12/31/2005            Both               5,318.00
050809272         12/31/2005            Both               5,318.00
05109368          12/31/2005            Both               5,318.00
10887             12/31/2005            Both               5,318.00
940804598         09/30/2005            Both               5,016.00
050109154         06/30/2005            Both               4,740.00
050209179         06/30/2005            Both               4,740.00
980605925         06/30/2005            Both               4,740.00
980806046         06/30/2005            Both               4,740.00


                                - 13 -
                    SUBMITTED
                   QUARTER END      REIMBURSEMENT
    CASE NO.           DATE           CATEGORY      AMOUNT QUESTIONED
041009054          03/31/2005            Both             4,408.00
041009057          03/31/2005            Both             4,408.00
041009068          03/31/2005            Both             4,408.00
041009072          03/31/2005            Both             4,408.00
041109104          03/31/2005            Both             4,408.00
041109115          03/31/2005            Both             4,408.00
041209128          03/31/2005            Both             4,408.00
041209131          03/31/2005            Both             4,408.00
021208282          12/31/2004            Both             4,929.00
040408637          12/31/2004            Both             4,929.00
040408640           12/31/2004           Both             4,929.00
040908988          12/31/2004            Both             4,929.00
10307              12/31/2004            Both             4,929.00
031208530A         06/30/2004            Both            10,000.00
040408638          06/30/2004            Both             5,000.00

Total Questioned Costs                                $587,591.00




                                 - 14 -
        CASES THAT WERE NOT PROSECUTED FOR WHICH

           THE COUNTY RECEIVED REIMBURSEMENT

              SUBMITTED
             QUARTER END      REIMBURSEMENT     AMOUNT
 CASE NO.       DATE            CATEGORY       QUESTIONED
000607138    09/30/2003       Detention Only    $1,250.00
000607142    09/30/2003       Detention Only     1,250.00
000607146    09/30/2003       Detention Only     1,250.00
000607162    09/30/2003       Detention Only     1,250.00
000607169    09/30/2003       Detention Only     1,250.00
000607176    09/30/2003       Detention Only     1,250.00
000607181    09/30/2003       Detention Only     1,250.00
000607200    09/30/2003       Detention Only     1,250.00
010107261    09/30/2005            Both          5,016.00
010307296    09/30/2005            Both          5,016.00
000607113    09/30/2003       Detention Only     1,250.00
010607357    09/30/2005            Both          5,016.00
010607363    09/30/2005            Both          5,016.00
010307313    09/30/2005            Both          5,016.00
010307314    09/30/2005            Both          5,016.00
010607378    09/30/2005            Both          5,016.00
010607380    09/30/2005            Both          5,016.00
010607382    09/30/2005            Both          5,016.00
010607389    09/30/2005            Both          5,016.00
010607392    09/30/2005            Both          5,016.00
010607395    09/30/2005            Both          5,016.00
010607397    09/30/2005            Both          5,016.00
010607409    09/30/2005            Both          5,016.00
010607410    09/30/2005            Both          5,016.00
010607414    09/30/2005            Both          5,016.00
010707452    09/30/2005            Both          5,016.00
010707456    09/30/2005            Both          5,016.00
010707466    09/30/2005            Both          5,016.00
010707468    09/30/2005            Both          5,016.00
010707485    09/30/2005            Both          5,016.00
010807502    09/30/2005            Both          5,016.00
010807507    09/30/2005            Both          5,016.00
010807514    09/30/2005            Both          5,016.00
010807515    09/30/2005            Both          5,016.00
010807516    09/30/2005            Both          5,016.00
010807520    09/30/2005            Both          5,016.00
010807522    09/30/2005            Both          5,016.00
010807525    09/30/2005            Both          5,016.00
010807533    09/30/2005            Both          5,016.00
010807538    09/30/2005            Both          5,016.00
010807539    09/30/2005            Both          5,016.00
010807542    09/30/2005            Both          5,016.00
010807544    09/30/2005            Both          5,016.00
011107580    09/30/2005            Both          5,016.00


                           - 15 -
             SUBMITTED
            QUARTER END      REIMBURSEMENT     AMOUNT
 CASE NO.      DATE            CATEGORY       QUESTIONED
011107584   09/30/2005            Both         5,016.00
011107588   09/30/2005            Both         5,016.00
011107609   09/30/2005            Both         5,016.00
011107629   09/30/2005            Both         5,016.00
011107640   09/30/2005            Both         5,016.00
011107653   09/30/2005            Both         5,016.00
011107675   09/30/2005            Both         5,016.00
011207693   09/30/2005            Both         5,016.00
011207708   09/30/2005            Both         5,016.00
011207714   09/30/2005            Both         5,016.00
011207715   09/30/2005            Both         5,016.00
020307735   09/30/2005            Both         5,016.00
020307743   09/30/2005            Both         5,016.00
020307745   09/30/2005            Both         5,016.00
020307756   09/30/2005            Both         5,016.00
020307758   09/30/2005            Both         5,016.00
020307768   09/30/2005            Both         5,016.00
020307769   09/30/2005            Both         5,016.00
020407794   09/30/2005            Both         5,016.00
020407799   09/30/2005            Both         5,016.00
020808174   09/30/2005            Both         5,016.00
020808177   09/30/2005            Both         5,016.00
020808200   09/30/2005            Both         5,016.00
020808216   09/30/2005            Both         5,016.00
 20407812   09/30/2005            Both         5,016.00
020407823   09/30/2005            Both         5,016.00
020407838   09/30/2005            Both         5,016.00
020407839   09/30/2005            Both         5,016.00
000306859   09/30/2003       Detention Only    1,250.00
000306865   09/30/2003       Detention Only    1,250.00
000306868   09/30/2003       Detention Only    1,250.00
000306871   09/30/2003       Detention Only    1,250.00
000306877   09/30/2003       Detention Only    1,250.00
000306883   09/30/2003       Detention Only    1,250.00
000306889   09/30/2003       Detention Only    1,250.00
000306893   09/30/2003       Detention Only    1,250.00
000306900   09/30/2003       Detention Only    1,250.00
000306914   09/30/2003       Detention Only    1,250.00
000306919   09/30/2003       Detention Only    1,250.00
000306934   09/30/2003       Detention Only    1,250.00
000306962   09/30/2003       Detention Only    1,250.00
000306963   09/30/2003       Detention Only    1,250.00
000306964   09/30/2003       Detention Only    1,250.00
000406969   09/30/2003       Detention Only    1,250.00
000406975   09/30/2003       Detention Only    1,250.00
000406976   09/30/2003       Detention Only    1,250.00


                          - 16 -
                    SUBMITTED
                   QUARTER END      REIMBURSEMENT       AMOUNT
    CASE NO.          DATE            CATEGORY         QUESTIONED
   000406980       09/30/2003       Detention Only      1,250.00
   000406987       09/30/2003       Detention Only      1,250.00
   000406995       09/30/2003       Detention Only      1,250.00
   000406999       09/30/2003       Detention Only      1,250.00
   000407001       09/30/2003       Detention Only      1,250.00
   000407005       09/30/2003       Detention Only      1,250.00
   000407012       09/30/2003       Detention Only      1,250.00
   000407013       09/30/2003       Detention Only      1,250.00
   000407023       09/30/2003       Detention Only      1,250.00
   000407024       09/30/2003       Detention Only      1,250.00
   000407038       09/30/2003       Detention Only      1,250.00
   000407044       09/30/2003       Detention Only      1,250.00
   000407045       09/30/2003       Detention Only      1,250.00
   000407050       09/30/2003       Detention Only      1,250.00
   000407052       09/30/2003       Detention Only      1,250.00
   000407064       09/30/2003       Detention Only      1,250.00
   000607078       09/30/2003       Detention Only      1,250.00
   000607090       09/30/2003       Detention Only      1,250.00
   000607097       09/30/2003       Detention Only      1,250.00
   000607102       09/30/2003       Detention Only      1,250.00
   000607103       09/30/2003       Detention Only      1,250.00
   000607107       09/30/2003       Detention Only      1,250.00
   000607108       09/30/2003       Detention Only      1,250.00
   000607114       09/30/2003       Detention Only      1,250.00
   000607118       09/30/2003       Detention Only      1,250.00
   000607150       09/30/2003       Detention Only      1,250.00

Total Questioned Costs                               $382,258.00




                                 - 17 -
  CASES THAT PROSECUTION WAS NOT SUPPORTED FOR WHICH BROOKS 

                COUNTY RECEIVED REIMBURSEMENTS

                 SUBMITTED
                QUARTER END      REIMBURSEMENT       AMOUNT
    CASE NO.       DATE             CATEGORY        QUESTIONED
990106209       09/30/2003       Prosecution Only   $5,000.00
990106216       09/30/2003       Prosecution Only    5,000.00
990306241       09/30/2003       Prosecution Only    5,000.00
990306244       09/30/2003       Prosecution Only    5,000.00
990306254       09/30/2003       Prosecution Only    5,000.00
990306262       09/30/2003       Prosecution Only    5,000.00
990306272       09/30/2003       Prosecution Only    5,000.00
990406281       09/30/2003       Prosecution Only    5,000.00
990406286       09/30/2003       Prosecution Only    5,000.00
990406295       09/30/2003       Prosecution Only    5,000.00
990406304       09/30/2003       Prosecution Only    5,000.00
990406305       09/30/2003       Prosecution Only    5,000.00
990406307       09/30/2003       Prosecution Only    5,000.00
990406308       09/30/2003       Prosecution Only    5,000.00
990406309       09/30/2003       Prosecution Only    5,000.00
990406310       09/30/2003       Prosecution Only    5,000.00
990406313       09/30/2003       Prosecution Only    5,000.00
990406322       09/30/2003       Prosecution Only    5,000.00
990406330       09/30/2003       Prosecution Only    5,000.00
990506343       09/30/2003       Prosecution Only    5,000.00
990506349       09/30/2003       Prosecution Only    5,000.00
990506359       09/30/2003       Prosecution Only    5,000.00
990506365       09/30/2003       Prosecution Only    5,000.00
990506378       09/30/2003       Prosecution Only    5,000.00
990506379       09/30/2003       Prosecution Only    5,000.00
990506386       09/30/2003       Prosecution Only    5,000.00
990506387       09/30/2003       Prosecution Only    5,000.00
990506394       09/30/2003       Prosecution Only    5,000.00
990506402       09/30/2003       Prosecution Only    5,000.00
990606421       09/30/2003       Prosecution Only    5,000.00
990606426       09/30/2003       Prosecution Only    5,000.00
990606431       09/30/2003       Prosecution Only    5,000.00
990606451       09/30/2003       Prosecution Only    5,000.00
990606461       09/30/2003       Prosecution Only    5,000.00
990606464       09/30/2003       Prosecution Only    5,000.00
990606475       09/30/2003       Prosecution Only    5,000.00
990606485       09/30/2003       Prosecution Only    5,000.00
990706506       09/30/2003       Prosecution Only    5,000.00
990706509       09/30/2003       Prosecution Only    5,000.00
990706510       09/30/2003       Prosecution Only    5,000.00
990706515       09/30/2003       Prosecution Only    5,000.00
990706524       09/30/2003       Prosecution Only    5,000.00
990706541       09/30/2003       Prosecution Only    5,000.00
990706550       09/30/2003       Prosecution Only    5,000.00


                              - 18 -
                    SUBMITTED
                   QUARTER END      REIMBURSEMENT        AMOUNT
    CASE NO.          DATE             CATEGORY         QUESTIONED
990706573          09/30/2003       Prosecution Only     5,000.00
990706576          09/30/2003       Prosecution Only     5,000.00
990706579          09/30/2003       Prosecution Only     5,000.00
990706580          09/30/2003       Prosecution Only     5,000.00
990706582          09/30/2003       Prosecution Only     5,000.00
990706585          09/30/2003       Prosecution Only     5,000.00
990706586          09/30/2003       Prosecution Only     5,000.00
990706601          09/30/2003       Prosecution Only     5,000.00
990706602          09/30/2003       Prosecution Only     5,000.00
990706608          09/30/2003       Prosecution Only     5,000.00
990706623          09/30/2003       Prosecution Only     5,000.00
990706636          09/30/2003       Prosecution Only     5,000.00
990706646          09/30/2003       Prosecution Only     5,000.00
990906680          09/30/2003       Prosecution Only     5,000.00
990906704          09/30/2003       Prosecution Only     5,000.00
950604826          06/30/2006       Prosecution Only     2,154.50
950704970          03/31/2006       Prosecution Only     2,380.50
960105156          03/31/2006       Prosecution Only     2,380.50
981006084          09/30/2005       Prosecution Only     2,508.00
990706641          09/30/2005       Prosecution Only     2,508.00
970505443          06/30/2005       Prosecution Only     2,370.00
921003327          03/31/2005       Prosecution Only     2,204.00
930403710          03/31/2005       Prosecution Only     2,204.00
930103555          12/31/2004       Prosecution Only     2,464.50

Total Questioned Costs                                 $316,174.00




                                 - 19 -
 CASES FOR WHICH PRE-TRIAL DETENTION REQUIREMENTS DID NOT HAVE 

                   SUPPORTING DOCUMENTATION


                  SUBMITTED
                 QUARTER END      REIMBURSEMENT      AMOUNT
    CASE NO.        DATE            CATEGORY       QUESTIONED
040108544        09/30/2006            Both       $2,202.50
050809275        09/30/2006            Both        2,202.50
060309500        09/30/2006            Both        2,202.50
950404775        09/30/2006            Both        2,202.50
960605253        09/30/2006            Both        2,202.50
970505472        09/30/2006            Both        2,202.50
970805541        09/30/2006            Both        2,202.50
980405703        09/30/2006            Both        2,202.50
040508665        06/30/2006            Both        2,154.50
040708806        06/30/2006            Both        2,154.50
040708837        06/30/2006            Both        2,154.50
051209435        03/31/2006            Both        2,380.50
020407849        12/31/2005            Both        2,659.00
050309194        12/31/2005            Both        2,659.00
050809292        12/31/2005            Both        2,659.00
950705057        12/31/2005            Both        2,659.00
050309205        09/30/2005            Both        2,508.00
050709233        09/30/2005            Both        2,508.00
050709235        09/30/2005            Both        2,508.00
980405771        09/30/2005            Both        2,508.00
040908991        09/30/2005            Both        2,508.00
041209123        09/30/2005            Both        2,508.00
050109135        09/30/2005            Both        2,508.00
040808902        06/30/2005            Both        2,370.00
041009041        06/30/2005            Both        2,370.00
050109145        06/30/2005            Both        2,370.00
10503            06/30/2005            Both        2,370.00
10688            06/30/2005            Both        2,370.00
040608730        03/31/2005            Both        2,204.00
040608755        03/31/2005            Both        2,204.00
040708807        03/31/2005            Both        2,204.00
040808897        03/31/2005            Both        2,204.00
041009048        03/31/2005            Both        5,000.00
10585            03/31/2005            Both        5,000.00
050209173        03/31/2005            Both        5,000.00
040508657        12/31/2004            Both        2,464.50
040608708        12/31/2004            Both        2,464.50
040608715        12/31/2004            Both        2,464.50
040608722        12/31/2004            Both        2,464.50
040608758        12/31/2004            Both        2,464.50
040708818        12/31/2004            Both         2,464.50
040708823        12/31/2004            Both         2,464.50
040708836        12/31/2004            Both         2,464.50


                               - 20 -
040708867           12/31/2004            Both      2,464.50
040708868           12/31/2004            Both      2,464.50
040808878           12/31/2004            Both      2,464.50
040808883           12/31/2004            Both      2,464.50
040808884           12/31/2004            Both      2,464.50
040908974           12/31/2004            Both      2,464.50
040909011           12/31/2004            Both      2,464.50
020407914           12/31/2004            Both      2,464.50
040708833           12/31/2004            Both      2,464.50
040608699           12/31/2004            Both      2,464.50
040608756           12/31/2004            Both      2,464.50
040908975           12/31/2004            Both      2,464.50

Total Questioned Costs                           $139,612.00




                                 - 21 -
             CASES SUBMITTED IN THE INCORRECT QUARTER

              SUBMITTED       ACTUAL
             QUARTER END   DISPOSITION   REIMBURSEMENT        AMOUNT
 CASE NO.       DATE           DATE         CATEGORY         QUESTIONED
06648        06/30/2003    07/16/2003    Prosecution Only    $5,000.00
08339        06/30/2003    07/16/2003          Both          10,000.00
08305        06/30/2003    10/30/2003          Both          10,000.00
08337        06/30/2003    11/14/2003          Both          10,000.00
07595        03/31/2003    04/02/2003    Prosecution Only     5,000.00
08096        03/31/2003    09/18/2003    Prosecution Only     5,000.00
08223        03/31/2003    04/22/2003    Prosecution Only     5,000.00
08227        03/31/2003    04/02/2003    Prosecution Only     5,000.00
08257        03/31/2003    05/27/2003    Prosecution Only     5,000.00
07602        09/30/2002    11/24/2003    Prosecution Only     2,500.00
07734        09/30/2002    08/03/2004    Prosecution Only     3,750.00
07757        09/30/2002    05/29/2003    Prosecution Only     3,750.00
07870        09/30/2002    07/02/2003    Prosecution Only     3,750.00
07897        09/30/2002    10/02/2003    Prosecution Only     3,750.00
07899        09/30/2002    04/04/2003    Prosecution Only     3,750.00
06677        09/30/2002    09/29/2003    Prosecution Only     5,000.00
030708411     9/30/2003     10/2/2003    Prosecution Only     1,250.00
390306265     9/30/2003     6/29/2001    Prosecution Only     5,000.00
990606427     9/30/2003     9/23/2004    Prosecution Only     5,000.00
990606448     9/30/2003      6/1/2005    Prosecution Only     5,000.00
990606462     9/30/2003    10/29/2004    Prosecution Only     5,000.00
990706520     9/30/2003      8/4/2005    Prosecution Only     5,000.00
991006710     9/30/2003    11/28/2002    Prosecution Only     5,000.00
000407004     9/30/2003    10/23/2003     Detention Only      1,250.00
000407028     9/30/2003     9/23/2004     Detention Only      1,250.00
000407053     9/30/2003      6/1/2005     Detention Only      1,250.00
000607137     9/30/2003     3/15/2005     Detention Only      1,250.00
000607148     9/30/2003      2/1/2005     Detention Only      1,250.00
000607184     9/30/2003    12/14/2004     Detention Only      1,250.00
000607198     9/30/2003      2/2/2005     Detention Only      1,250.00

Total Questioned Costs                                      $126,250.00




                                - 22 -
           UNSUPPORTED CASES FOR WHICH RECORD RETENTION

                   REQUIREMENTS WERE NOT MET

                    SUBMITTED
                   QUARTER END       REIMBURSEMENT        AMOUNT
   CASE NO.           DATE              CATEGORY         QUESTIONED
040108558          09/30/2006        Prosecution Only     $2,202.50
000106779          06/30/2006        Prosecution Only      2,154.50
011107608          03/31/2006        Prosecution Only      2,380.50
020507942          12/31/2004        Prosecution Only      2,464.50
980605855          12/31/2004        Prosecution Only      2,464.50
10600              12/31/2004        Prosecution Only      2,464.50
990306240          09/30/2003        Prosecution Only      5,000.00
060309474          09/30/2006              Both            4,405.00
931104228          09/30/2006              Both            4,405.00
050309189          09/30/2005              Both            5,016.00
050409213          09/30/2005              Both            5,016.00
040508680          09/30/2005              Both            5,016.00
010607369          09/30/2005              Both            5,016.00
010607420          09/30/2005              Both            5,016.00
010807499          09/30/2005              Both            5,016.00
010807537          09/30/2005              Both            5,016.00
011107622          09/30/2005              Both            5,016.00
011207698          09/30/2005              Both            5,016.00
020307759          09/30/2005              Both            5,016.00
020407820          09/30/2005              Both            5,016.00
040909079          12/31/2004              Both            4,929.00
051209433          09/30/2006              Both            5,016.00
060809555          09/30/2006              Both            5,016.00
050909317          12/31/2005              Both            5,318.00
040708864          03/31/2005              Both            4,408.00
040308585          06/30/2004              Both           10,000.00

Total Questioned Costs                                  $117,804.00




                                 - 23 -
      CASES FOR WHICH DUPLICATE REIMBURSEMENT WAS RECEIVED
                      SUBMITTED
                     QUARTER END       REIMBURSEMENT        AMOUNT
    CASE NO.            DATE             CATEGORY         QUESTIONED
060809547            09/30/2006             Both          $4,405.00
060809548            09/30/2006             Both           4,405.00
060809549            09/30/2006             Both           4,405.00
060809550            09/30/2006             Both           4,405.00
060809553            09/30/2006             Both           4,405.00
060809554            09/30/2006             Both           4,405.00
060809555            09/30/2006             Both           4,405.00
060809556            09/30/2006             Both           4,405.00
060809557            09/30/2006             Both           4,405.00
060809558            09/30/2006             Both           4,405.00
060809560            09/30/2006             Both           4,405.00

Total Questioned Costs                                   $48,455.00



      CASES FOR WHICH DUPLICATE REIMBURSEMENT WAS RECEIVED
                      SUBMITTED
                     QUARTER END       REIMBURSEMENT       AMOUNT
    CASE NO.            DATE              CATEGORY        QUESTIONED
051209433            03/31/2006             Both          $4,761.00
05109369             12/31/2005             Both           5,318.00
040808941            12/31/2004             Both           4,929.00
10503                12/31/2004             Both           4,929.00
040908979            03/31/2005       Prosecution Only     2,204.00
040908997            03/31/2005       Prosecution Only     2,204.00

Total Questioned Costs                                   $24,345.00

                     CASES WHICH DID NOT MEET THE 

               OVERNIGHT PRE-TRIAL DETENTION REQUIREMENT

                      SUBMITTED
                     QUARTER END       REIMBURSEMENT        AMOUNT
    CASE NO.            DATE             CATEGORY         QUESTIONED
10609                12/31/2004            Both            $2,464.50
30308446             12/31/2003            Both             5,000.00

Total Questioned Costs                                    $7,465.50




                                   - 24 -
         APPENDIX IV





- 26 -
Unallowable Reimbursements-cases          We agree with these findings. We have cases not previously
submitted in the incorrect quarter.       submitted that can replace these cases.
Unsupported Reimbursements-cases          The information sought by the auditors was not available at that
for which the supporting data was         time of the audit. We have since located the some of the data and
incomplete                                will provide the data necessary.
Unallowable excess reimbursement-for       We agree with these findings. We have cases not previously
duplicate cases previously submitted      submitted that can replace these cases.
Unallowable Cases- cases that did not     Offense dates and Bail Bond records were used to claim detention
meet the overnight pre-trial detention    as per our interpretation of the guidelines.
requirement.
Unsupported Reimbursements-cases           We are currently working on providing cases to replace those not
not supported by the master list.         supported by the master list.


If you have questions, please contact me at (361) 325-5604 ext. 232.




                       ~A
Sincerely,

~t/LIMACA
JuiaGarza
Brooks County Grants Administrator


Cc: Linda Hammond-Deckard, Program Manager
    Bureau of Justice Assistance
    810 Seventh Street NW.
    Washington, DC 20531




                                                - 27 -
                                                                                 APPENDIX V

                                                  u.s. Department of Justice
                                                  Office of Justice Programs

                                                  Office of Audit, Assessment, and Management



                                                  Washington, D, C. 20531

'DEC 032001

MEMORANDUM TO:               David M. Sheeren
                             Regional Audit Manager
                             Denver Regional Audit Office
                             Office of the Inspector General


FROM:                       ~'!Jh
                             Acting Director
                             Office of Audit, Assessment, and Management

SUBJECT:                     Response to the Draft Audit Report, Office ofJustice Programs
                             Southwest Border Prosecution Initiative Funding Received by
                             Brooks County, Texas

This memorandum is in response to your correspondence dated November 6,2007, transmitting
the above draft audit report for Brooks County, Texas (Brooks County). We consider the subject
report resolved and request written acceptance of this action from your office.

The report contains 10 recommendations and $1,921,274 in questioned costs. The following is
our analysis of the audit recommendation.

1.     Remedy the $587,591 in unallowable costs received by Brooks County for the 138
       cases that were not federally initiated.

       We agree with this recommendation. We will coordinate with Brooks County to remedy
       the questioned costs associated with cases t~at were not federally initiated.

2.     Remedy the $382,258 in unallowable costs received by Brooks County for 116 cases
       that were not prosecuted and erroneously submitted.

       We agree with this recommendation. We will coordinate with Brooks County to remedy
       the questioned costs associated with cases that were not prosecuted and erroneously
       submitted.




                                           - 28 -
3.   Remedy the $316,174 in unsupported questioned costs received by Brooks County
     for 68 cases that were erroneously submitted with unsupported disposition dates.

     We agree with this recommendation. We will coordinate with Brooks County to remedy
     the questioned costs associated with cases that were erroneously submitted with
     unsupported disposition dates.

4.   Remedy the $139,612 in unsupported costs for 55 cases for which pre-trial detention
     data was unavailable.

     We agree with this recommendation. We will coordinate with Brooks County to remedy
     the questioned costs associated with cases for which pre-trial detention data was not
     available.

5.   Remedy the $126,250 in unallowable costs for 30 cases submitted in the incorrect
     quarter.

     We agree with this recommendation. We will coordinate with Brooks County to remedy
     the questioned costs associated with cases that were submitted in the incorrect quarter.

6.   Remedy the $117,804 in unsupported questioned costs received by Brooks County
     for 26 cases with incomplete case files.

     We agree with this recommendation. We will coordinate with Brooks County to remedy
     the questioned costs associated with cases with incomplete case files.

7.   Remedy the $48,455 in unsupported costs for 11 cases submitted in a quarter
     without support.

     We agree with this recommendation. We will coordinate with Brooks County to remedy
     the questioned costs associated with cases submitted in a quarter without support.

8.   Remedy the $24,345 in unallowable costs received by Brooks County for six cases
     which were duplicates of other cases submitted.

     We agree with this recommendation. We will coordinate with Brooks County to remedy
     the questioned costs associated with cases that were duplicates of other cases submitted.

9.   Remedy the $7,465 in unallowable costs for two cases that were claimed under both
     the prosecution and pre-trial detention category, but should have been claimed as
     prosecution only because the defendant was not held overnight.

     We agree with this recommendation. We will coordinate with Brooks County to remedy
     the questioned costs associated with cases that were claimed under both the prosecution

                                              2




                                          - 29 -
       and pre-trial detention category, which should have been claimed as prosecution only
       because the defendant was not held overnight.

10.    Remedy the $171,320 for 50 cases that were not supported by the master case list
       when reconciled with OJP reimbursement data.

       We agree with this recommendation. We will coordinate with Brooks County to remedy
       the questioned costs associated with cases that were not supported by the master case list
       when reconciled with the Office of Justice Programs reimbursement data and will ensure
       that Brooks County implement procedures for maintaining the listing of cases submitted
       for future reimbursement.

We appreciate the opportunity to review and comment on the draft report. If you have any
questions or require additional information, please contact Donna Hamilton of my staff at
(202) 305-7483.

cc:    LeToya A. Johnson
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Hope D. Janke
       Counsel to the Director
       Bureau of Justice Assistance

       Amanda LoCicero
       Audit Liaison
       Bureau of Justice Assistance

       Linda Hammond-Deckard
       Policy Advisor
       Bureau of Justice Assistance

       Richard P. Theis
       Assistant Director
       Audit Liaison Group
       Justice Management Division

       OJP Executive Secretariat
       Control Number 20070967




                                                3




                                             - 30 -
                                                     APPENDIX VI


               ANALYSIS AND SUMMARY OF ACTIONS 

                NECESSARY TO CLOSE THE REPORT 




1.	   Resolved. This recommendation can be closed when we receive
      documentation supporting that OJP has remedied the $587,591
      in questioned costs received by Brooks County for the
      unallowable cases claimed that were not federally initiated.

2.	   Resolved. This recommendation can be closed when we receive
      documentation supporting that OJP has remedied the $382,258
      in questioned costs received by Brooks County for the
      unallowable cases claimed that were erroneously submitted.

3.	   Resolved. This recommendation can be closed when we receive
      documentation supporting that OJP has remedied the $316,174
      in questioned costs received by Brooks County for the
      unsupported cases claimed for which the supporting disposition
      data could not be located.

4.	   Resolved. This recommendation can be closed when we receive
      documentation supporting that OJP has remedied the $139,612
      in questioned costs received by Brooks County for the
      unsupported cases claimed for which the supporting jail data
      portion of reimbursement could not be located.

5.	   Resolved. This recommendation can be closed when we receive
      documentation supporting that OJP has remedied the $126,250
      in questioned costs received by Brooks County for the
      unallowable cases claimed that were submitted in the incorrect
      quarter.

6.	   Resolved. This recommendation can be closed when we receive
      documentation supporting that OJP has remedied the $117,804
      in questioned costs received by Brooks County for the
      unsupported cases claimed for which the supporting data was
      incomplete.



                               - 31 – 

7.	    Resolved. This recommendation can be closed when we receive
       documentation supporting that OJP has remedied the $48,455 in
       questioned costs received by Brooks County for the unsupported
       cases claimed for which the supporting data was incomplete.

8.	    Resolved. This recommendation can be closed when we receive
       documentation supporting that OJP has remedied the $24,345 in
       questioned costs received by Brooks County for the unallowable
       excess reimbursement for duplicate cases previously submitted.

9.	    Resolved. This recommendation can be closed when we receive
       documentation supporting that OJP has remedied the $7,465 in
       questioned costs received by Brooks County for the unallowable
       detention portion of cases claimed which did not meet pre-trial
       detention requirements.

10.	   Resolved. This recommendation can be closed when we receive
       documentation supporting that OJP has remedied the $171,320
       in questioned costs received by Brooks County for cases not
       supported by the master list.




                                - 32 – 

